<html>
<title> - H.R. 2631, THE NUCLEAR FORENSICS AND ATTRIBUTION ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



          H.R. 2631, THE NUCLEAR FORENSICS AND ATTRIBUTION ACT

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON EMERGING
                      THREATS, CYBERSECURITY, AND
                         SCIENCE AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2007

                               __________

                           Serial No. 110-76

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
48-971 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

   SUBCOMMITTEE ON EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND 
                               TECHNOLOGY

               JAMES R. LANGEVIN, Rhode Island, Chairman

ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    DANIEL E. LUNGREN, California
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
AL GREEN, Texas                      PETER T. KING, New York (Ex 
VACANCY                              Officio)
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                    Jacob Olcott, Director & Counsel

        Dr. Chris Beck, Senior Advisor for Science & Technology

                       Carla Zamudio-Dolan, Clerk

       Dr. Diane Berry, Minority Senior Professional Staff Member

                                  (II)










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable James R. Langevin, a Representative in Congress 
  from the State of Rhode Island, Chairman, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science and Technology:
  Oral Statement.................................................    19
  Prepared Statement.............................................    19
The Honorable Michael T. McCaul, a Representative in Congress 
  from the State of Texas, Ranking Member, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science and Technology....     2
The Honorable Bob Etheridge, a Representative in Congress from 
  the State of North Carolina....................................     1
The Honorable Al Green, a Representative in Congress from the 
  State of Texas.................................................    37

                               WITNESSES
                                Panel I

The Honorable Adam B. Schiff, a Representative in Congress from 
  the State of California:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32

                                Panel II

Dr. Steven Aoki, Deputy Under Secretary for Counterterrorism, 
  National Nuclear Security Administration, Department of Energy:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Dr. Carol Burns, Group Leader, Nuclear and Radiochemistry, 
  Chemistry Division, Los Alamos National Laboratory:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
Mr. Mike Evenson, Associate Director for Operations, Defense 
  Threat Reduction Agency, Department of Defense:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Mr. Andrew Grant, Acting Director for WMD Terrorism, Bureau of 
  International Security and Nonproliferation, Department of 
  State:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21
Dr. Vahid Majidi, Assistant Director, Weapons of Mass Destruction 
  Directorate, Federal Bureau of Investigation, Department of 
  Justice:
  Oral Statement.................................................    16
  Prepared Statement.............................................    17
Mr. Vayl Oxford, Director, Domestic Nuclear Detection Office, 
  Department of Homeland Security:
  Oral Statement.................................................     3
  Preapred Statement.............................................     4

 
          H.R. 2631, THE NUCLEAR FORENSICS AND ATTRIBUTION ACT

                              ----------                              


                      Wednesday, October 10, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
           Subcommittee on Emerging Threats, Cybersecurity,
                                and Science and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:14 p.m., in 
Room 311, Cannon House Office Building, Hon. James Langevin 
[chairman of the subcommittee] presiding.
    Present: Representatives Langevin, Christensen, Etheridge, 
Green, McCaul, Pascrell, Jr and Broun, Jr.
    Also present: Representative Berman.
    Mr. Etheridge. [Presiding.] The subcommittee will come to 
order.
    The subcommittee is meeting today to receive testimony on 
the need to develop and maintain a national nuclear forensic 
capacity. Today, the subcommittee is meeting to discuss and 
subsequently mark up an amendment in the nature of a substitute 
to H.R. 2631, the Nuclear Forensic and Attribution Act.
    I would like to congratulate my colleague, Congressman 
Schiff--he is not here right now, I don't think--for 
introducing this legislation and for working collaboratively 
with the committee to develop the amendment in the nature of a 
substitute that we will consider immediately after today's 
hearing.
    To paraphrase the provisions of H.R. 2631, as I am sure 
will be echoed by witnesses here today, the threat of nuclear 
terrorism attack is the most serious threat to the U.S. 
homeland and to our interests abroad. We must do everything we 
can to prevent such an event. Nuclear forensics and attribution 
is one important tool in this effort. Through nuclear 
forensics, it may be possible to identify the source of nuclear 
or radiological weapons. A robust forensic capacity should also 
have a deterrent effect for those who might use a weapon or 
provide such a weapon or weapons materials to terrorists.
    If the worse should happen and a nuclear attack is carried 
out, attribution is critical. In order to perform such, we must 
have the capacity for rapid sample acquisition, analysis, and 
characterization of the samples, and comparison of those 
samples to other known sample signatures. It is my belief that 
the provisions of this amendment in the nature of a substitute 
will help promote this capacity. I look forward to discussing 
this bill with our witnesses today.
    With that, I recognize the ranking member of the 
subcommittee, the gentleman from Texas, Mr. McCaul for an 
opening statement.
    Mr. McCaul?
    Mr. McCaul. I thank the chairman.
    The detonation of a nuclear device in an urban area of this 
country would be catastrophic. Reducing the risk of nuclear or 
radiological terrorism requires a layered system of defenses 
that involves deterring, detecting, disrupting, and recovering 
from terrorist attacks.
    We spend a great deal of time in this Congress discussing 
DNDO's efforts to deploy radiation portal monitors at our 
nation's ports of entry. These monitors, staffed by Customs and 
Border Protection officers are the nation's first line of 
defense against illicit trafficking of nuclear and radiological 
material.
    I would like to take this opportunity to commend DNDO on 
their achievements in this area. Mr. Oxford, to me, I have been 
very impressed that in only 18 months, your organization has 
deployed radiation monitors which now screen 91 percent of 
cargo coming across the northern border, and 97 percent of 
cargo coming across the southern border.
    In the next several months, Secretary Chertoff is expected 
to make a decision on the certification of the advance 
spectroscopic portal monitors. I hope this technology 
demonstrates a significant improvement over current radiation 
portal monitors, allowing Customs and Border Protection to 
improve accuracy, while maintaining this high percentage of 
cargo screening.
    But even with the best possible detection systems, the 
possibility remains that terrorists could beat the system and 
sneak something past one of our detectors, or through a 
nonofficial port of entry. That is why defense against 
terrorism, especially nuclear terrorism, requires this multi-
layered approach.
    Today, we are here to discuss one of the layers in the 
government's strategy to defend against nuclear terrorism. That 
layer is the Interagency Program of Technical and Nuclear 
Forensics and the role it plays in attribution. While forensics 
is only one component of attribution, it is a key part of 
ensuring the nation has a robust program to accurately and 
rapidly identify perpetrators of nuclear or radiological 
terrorism.
    The forensics program we have today includes programs in 
defense, the intelligence community, law enforcement, homeland 
security, and our national laboratories. I look forward to 
hearing on the progress DHS has made in coordinating this 
interagency program, and I also hope to hear the role each 
department plays in the acquisition, analysis, and 
characterization of radiological and nuclear material that 
would be necessary in the case of a successful nuclear attack.
    The main concern of this committee is the pipeline of 
qualified people into the fields associated with nuclear 
forensics. In recent years, the number of young people entering 
scientific fields has decreased. The nuclear fields in 
particular are suffering, especially in fields relevant to 
nuclear forensics, which may have no commercial counterpart. I 
am very interested to know the panel's thoughts on this issue 
as well, and what is in store for technical programs such as 
this one if this trend continues.
    I thank the panelists for being here. I yield back my time.
    Mr. Etheridge. I thank the gentleman.
    I would like to welcome our panelists here today, our first 
panelists who are witnesses to the hearing. I look forward to 
discussing the topics of nuclear forensics with such a 
collection of dedicated public servants. Welcome and thank you 
for being here.
    Our first witness is no stranger to this committee. Mr. 
Oxford is the director of the Domestic Nuclear Detection Office 
in the Department of Homeland Security. Welcome.
    Next is Dr. Aoki--is that pronounced correctly?
    Mr. Aoki. Aoki.
    Mr. Etheridge. Aoki. Okay, welcome. He is deputy under 
secretary of energy for counterterrorism at the Department of 
Energy. We welcome you.
    We also have--I hope I get this right; let me try--Dr. 
Vahid Majidi.
    Mr. Majidi. Sir, it is Vahid Majidi.
    Mr. Etheridge. Vahid Majidi. Thank you, sir. Welcome. He is 
assistant director for the Weapons of Mass Destruction 
Directorate of the Federal Bureau of Investigation.
    And next is Dr. Andrew Grant, acting director of the WMD 
Terrorism Bureau of International Security and 
Nonproliferation, U.S. Department of State. Welcome.
    And next we have Mr. Michael Evenson, who is the associate 
director for operations, Defense Threat Reduction Agency.
    And finally, we have Dr. Carol Burns, currently serving as 
the Group Leader for the Nuclear and Radiochemistry in the 
Chemistry Division of Los Alamos National Laboratory.
    Let me welcome each of you. Thank you for being here. 
Without objection, your full statement will be entered into the 
record.
    I would recognize Mr. Oxford first and ask each one of you, 
as soon as the other one has finished, to move along. I won't 
introduce you again. It would take up time. Summarize your 
statement within the 5 minutes if possible.
    I recognize you now, Mr. Oxford, for 5 minutes, for a 
summary. Thank you.

STATEMENT OF VAYL OXFORD, DIRECTOR, DOMESTIC NUCLEAR DETECTION 
            OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Oxford. Good afternoon, Chairman Etheridge, Ranking 
Member McCaul and other members of the subcommittee.
    I would like to thank the committee for the opportunity to 
discuss the U.S. government's nuclear forensics program and the 
role of DNDO in coordinating and advancing the nuclear 
forensics efforts through our National Technical Nuclear 
Forensics Center.
    I would also like to thank my colleagues who are joining me 
today from the Departments of Energy, Defense, State, FBI and 
Los Alamos National Laboratory.
    Technical nuclear forensics is the analysis, 
characterization and interpretation of pre-and post-detonation 
nuclear and radiological samples and devices, as well as the 
output signals from national nuclear detonations. The U.S. 
government's nuclear forensics efforts provide the tools, 
techniques and expertise to potentially determine the nature 
and origin of the materials and devices used in acts of 
terrorism and smuggling.
    In the last year, the U.S. government has made great 
strides in forming an integrated interagency team. Together, we 
are planning, prioritizing, and exercising. Our goal is to 
achieve and maintain a proficient national nuclear forensics 
capability that is credible, reliable, and ready for any 
contingency, from interdiction of nuclear materials or devices 
at the border, to a nuclear detonation in the homeland or 
against U.S. interests abroad.
    Nuclear forensics is now increasingly recognized as having 
the potential to serve as a central pillar of deterrence in the 
21st century. Nuclear forensics underpins the attribution 
process by helping to identify the possible sources of 
materials or devices, the device design, or the pathway taken 
to the actual incident. Attribution will be derived form the 
fusion of technical nuclear forensics analysis, with all-source 
intelligence, and law enforcement information to enable the 
decision-making process.
    DHS established the Forensics Center in DNDO on 1 October 
2006. The center develops and advances capabilities to perform 
nuclear forensics on pre-detonation nuclear and radiological 
materials. In coordination with our partners, it implements 
national-level integration, centralized planning, exercising, 
evaluation and stewardship across the full spectrum of U.S. 
government nuclear forensics capabilities from pre-to post-
detonation. In essence, the center serves as a system 
integrator for the end-to-end national capabilities.
    The strategic goals for the center include improving our 
nuclear forensics capabilities, developing a national-level 
exercise program, developing strong international nuclear 
forensics cooperation, and developing a strategic 
communications plan.
    Finally, it is important to note that most of the nation's 
scientific nuclear forensics capabilities exist in a relatively 
small cadre of experts at the national laboratories. We are all 
facing the challenges of recruiting and retaining the nuclear 
experts that we rely on so heavily to achieve our mission. We 
are working with our partners to assess the issues, identify 
solutions, and ultimately establish a stable and enduring 
workforce and career pipeline.
    In conclusion, the importance of nuclear forensics cannot 
be understated. It is challenging and it is essential, another 
critical layer in our nation's strategy of layered defense 
against the nuclear threat.
    Chairman Etheridge, Ranking Member McCaul and other members 
of the committee, this concludes my prepared statement. I will 
be happy to answer any questions you may have.
    [The statement of Mr. Oxford follows:]

                  Prepared Statement of Vayl S. Oxford

Introduction
    Good morning, Chairman Langevin, Ranking Member McCaul, and 
distinguished members of the subcommittee. I am Vayl Oxford, Director 
of the Domestic Nuclear Detection Office (DNDO), and I would like to 
thank the committee for the opportunity to discuss the U.S. 
Government's (USG) nuclear forensics program and the role of DNDO in 
coordinating nuclear forensics efforts through our National Technical 
Nuclear Forensics Center, (NTNFC) that was established in DNDO last 
October. I would also like to thank my partners who are joining me from 
the Departments of Energy (DOE), Defense (DoD), State (DOS), and 
Justice (DOJ).

Background
    The USG's nuclear forensic efforts provide the tools and the 
expertise to potentially determine the nature and origin of the 
materials and devices used in acts of terrorism and smuggling. This 
information is used in the broader process of attribution, which 
couples intelligence and law enforcement information with the results 
of forensic analyses to aid in the identification of those who 
designed, built, supplied, transported and used an improvised nuclear 
device (IND), a stolen or acquired nuclear weapon, a radiological 
dispersal device (RDD), or nuclear/radiological material. Technical 
Nuclear Forensics, or TNF, refers to the thorough analysis, 
characterization, and interpretation of pre-detonation and post-
detonation nuclear/radiological samples and devices, as well as prompt 
output signals from a nuclear detonation. TNF is a critical nuclear 
deterrence capability to demonstrate we can hold perpetrators 
accountable, and also to help find and prevent follow on attacks. The 
roots of this program are founded in the techniques that were used for 
many years in the U.S. nuclear weapons development and testing 
programs, arms control monitoring, and intelligence activities. Today, 
with the looming threat of nuclear terrorism, the requirements and 
timelines that drive our efforts are new and only began crystallizing 
in the last few years.
    TNF is necessarily an interagency effort with respective lead and 
support roles and responsibilities assigned through a recent 
Presidential policy directive. In the last year the USG has made great 
strides in aligning itself in accordance with the directive, forming an 
integrated interagency team. Together we are planning, prioritizing, 
and exercising. DNDO's TNF goal is to achieve and maintain a proficient 
national nuclear forensics capability that is credible, robust, rapid, 
reliable, and ready for any contingency, from interdiction of nuclear 
materials at the border to a nuclear detonation in the homeland, or 
against U.S. interests abroad. Nuclear forensics is now increasingly 
recognized as having the potential to serve as a central pillar of 
deterrence in the 21st century, tied to new concepts of ``nuclear 
accountability'' (as Graham Allison calls it) for countries that might 
consider the ``witting'' transfer of nuclear materials or weapons to 
our adversaries, as well as to encourage improved safeguarding of those 
materials and weapons, to deter the ``unwitting'' transfer. We 
understand that effective strategic communications is fundamental to 
the deterrence equation. If deterrence fails, then nuclear forensics 
serves to underpin the attribution process by helping to identify the 
possible source of the materials or device, the device design type 
(after a detonation), and the pathway taken to the incident scene, 
utilizing both nuclear and traditional forensics techniques. 
Attribution will be derived from the fusing of the technical nuclear 
forensics conclusions with all source intelligence and law enforcement 
information, which in turn enables the decision-making process for 
assessing potential follow-on attacks, response options for the 
President, as well as prosecution deliberations.

NTNFC
    The Department of Homeland Security (DHS) established the National 
Technical Nuclear Forensics Center (NTNFC) in DNDO on October 1, 2006. 
Like the broader DNDO, the Center is staffed with a mix of DHS federal 
employees and detailees from our partner agencies. DHS assumed this 
mission as a result of the classified Presidential policy directive 
that defined two core forensics missions for DNDO. First, the NTNFC is 
intended to serve as the national ``capability provider'' to develop 
and advance capabilities to perform nuclear forensics on pre-detonation 
nuclear and radiological materials. The second mission for the NTNFC is 
to implement national-level integration, centralized planning, 
exercising, evaluation, and stewardship across the full spectrum of USG 
nuclear forensics capabilities, from pre-to post-detonation--in essence 
to serve as the ``System Integrator'' for the end-to-end national 
capabilities. These missions are specifically directed to be carried 
out ``in coordination'' with our partners in the DoD, DOS, DOE, DOJ, 
and the Office of the Director of National Intelligence (DNI).

Strategic Goals
    The strategic goals for the NTNFC include striving to continuously 
improve nuclear forensic capabilities through research & development, 
interagency program reviews, independent assessments, and exercising. 
We are developing a highly matrixed national-level exercise program--we 
know that strict protocols and intense timelines will be the rule after 
an event, and so we must exercise regularly to optimize our 
capabilities and readiness.
    We are also working closely with our interagency partners to 
develop a strong international pillar of nuclear forensics 
cooperation--which means sharing best practices and information on 
materials and cases, developing personal relationships with 
international forensic scientists and law enforcement, and performing 
exercises in cooperation with other nations. The NTNFC provides 
considerable technical support to the DOS in order to engage other 
nations and develop the absolutely essential international aspects of 
our nuclear forensics programs.
    The NTNFC will also be developing an in-depth strategic 
communications plan. We need to raise the awareness of others in the 
government and the public to garner the appropriate kinds of support 
and disseminate the right kinds of messages. With effective strategic 
communications, our nuclear detection and forensics missions can 
succeed in creating a new kind of deterrence for the 21st century.
    It is important to note that most of the Nation's scientific 
nuclear forensics capabilities rest on the shoulders of a relatively 
small cadre of experts at the national labs. We are all facing the 
challenges of recruiting and retaining the nuclear experts that we rely 
on so heavily to achieve our mission. The NTNFC is working with our 
partners to assess the issues, identify solutions, and ultimately 
establish a stable and enduring workforce and career pipeline. This is 
a major strategic goal of not only DHS, but all of us here at the table 
today.

Accomplishments to date
    In the short time since the NTNFC was established, we have been 
working quickly to create a small staff of in-house experts to 
coordinate with our federal and laboratory partners to meet the needs 
of our TNF mission. We have developed a baseline Nuclear Forensics 
Knowledge Management & Analysis System that underpins our capabilities 
to perform nuclear forensics on interdicted materials. This program 
entails the development of forensic information analysis tools, for 
example, multivariate pattern recognition tools; methods to deduce and 
link materials signatures to production processes; and development of 
historical nuclear material process and production timelines.
    The NTNFC also chairs the Attribution Working Group of the 
Subcommittee on Nuclear Defense Research and Development, Committee on 
Homeland Defense and National Security, National Science and Technology 
Council. The purpose of this Subcommittee is to identify and recommend 
a prioritized investment strategy to continually increase the overall 
effectiveness and productivity of USG R&D related to developing a 
robust nuclear defense capability. Additional Subcommittee working 
groups include Nonproliferation, Interdiction, Render Safe, and 
Response and Recovery, resulting in effective integration of R&D needs 
analysis across the nuclear defense spectrum. With members from DHS, 
DoD, DOS, DOE, DOJ, as well as the Environmental Protection Agency 
(EPA) and Intelligence Community, the Attribution Working Group is 
developing six areas of R&D emphasis that define a USG coordinated 
forensics and attribution program. The Subcommittee has currently 
baselined the capabilities in nuclear defense, developed the vision of 
the desired end-state five years out, and prioritized gaps in R&D. 
Ultimately, the development and analysis of this roadmap will form the 
basis for an interagency coordinated program of prioritized R&D efforts 
to effectively address gaps without redundancy. This Roadmap is 
scheduled for completion in February 2008, in time for agencies to use 
the plan to develop FY 2010 budget requests.
    The NTNFC has made significant strides in integrating the day to 
day workings of our interagency team. In addition to the joint Exercise 
Planning Group, we have established a few essential bodies to plan and 
direct nuclear forensics activities--we stood up a Nuclear Forensics 
Working Group at the action officer level; a Steering Committee at the 
program manager level; and just last month we launched a ``Nuclear 
Forensics Executive Council'' with senior executive membership across 
each department and the intelligence community. The Council was 
established to assure effective implementation and oversight, with 
enduring senior level focus and attention to the forensics mission. At 
our inaugural meeting last month, we were honored to have Secretary 
Chertoff join us and express his strong support for this critical 
mission.

Conclusion
    The importance of nuclear forensics cannot be overstated. It is a 
field that seems to grow in visibility on a weekly basis. It is 
challenging, and it is essential--another critical layer in our 
Nation's strategy of layered defense against the nuclear threat. Our 
mandate requires that we develop, improve and sustain an enduring 
capability that is rapid and credible--that will meet the President's 
and Congress' expectations during an unprecedented catastrophe--and 
effectively support attribution conclusions, and potential responses. 
Moreover, nuclear forensics efforts may indeed help to prevent a 
follow-on attack--the issue that will be foremost on all of our minds 
in the wake of an attack. The nuclear forensics mission is a 
crosscutting effort throughout the USG and appropriate coordination 
through the DNDO's National Technical Nuclear Forensics Center will 
ensure that effective, integrated, and robust capabilities are 
developed and sustained.
    The Secretary and I are committed to doing whatever it takes, as 
quickly and as prudently as possible, to prevent a nuclear 9-11, or a 
dirty bomb attack. Nuclear forensics is central to our efforts. And 
there is no doubt that our odds of success are magnified tremendously 
when we persevere with our partners across the board, through planning, 
exercising, and improving our national capabilities.
    This concludes my prepared statement. With the committee's 
permission, I request my formal statement be submitted for the record. 
Chairman Langevin, Ranking Member McCaul, and Members of the 
Subcommittee, I thank you for your attention and will be happy to 
answer any questions that you may have.

    Mr. Etheridge. Thank you, sir.

      STATMENT OF STEVEN AOKI, DEPUTY UNDER SECRETARY FOR 
  COUNTERTERRORISM, NATIONAL NUCLEAR SECURITY ADMINISTRATION, 
                      DEPARTMENT OF ENERGY

    Mr. Aoki. Thank you. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member McCaul, members of the 
committee, I greatly appreciate the opportunity to appear 
before you today to discuss the Department of Energy's efforts 
in the area of nuclear forensics. Along with our colleagues 
from other federal agencies, we are actively involved in 
developing and maintaining the technical expertise, scientific 
tools, and specialized facilities to help identify those 
involved in the theft of nuclear materials or those responsible 
for an act of nuclear terrorism.
    I submitted a written statement, so I just will focus on a 
few key points here.
    First, technical nuclear forensics really is only part of a 
broader process of attribution. Attribution really aims to 
answer the question ``who did it'' by looking at the full range 
of intelligence, law enforcement and scientific information 
available to the nation. Technical forensics may play a 
critical part in reaching that final judgment, but it is only a 
part.
    Secondly, we must be prepared to provide technical 
forensics analysis in several different types of situations 
that have different characteristics. We may recover weapons-
grade nuclear materials from a smuggler apprehended at a border 
crossing or as a result of a criminal investigation. Forensic 
tools can help identify where that material originated and 
perhaps tell us something about its history.
    Alternatively, we might intercept an actual nuclear device 
before it can be detonated. In this case, in addition to the 
forensic analysis of the nuclear material, expert analysis of 
the design of the device could give us valuable clues about who 
built it and in particular whether there was any assistance 
from a foreign government. Of course, special procedures and 
facilities will be required to perform any operations of a 
potentially live nuclear weapon.
    Finally, we must also prepare for the grim possibility that 
we will be called on to conduct forensic analysis after a 
terrorist nuclear device has detonated. In this case, it is 
possible to analyze the radioactive debris to determine the 
types of nuclear materials involved and perhaps reconstruct the 
device design, providing important clues to identify the 
responsible party.
    In all three of these cases, the availability of a strong 
and capable national technical nuclear forensics program 
strengthens deterrence against those who might support an act 
of nuclear terrorism. We must, however, be realistic about the 
length of time required for some of the analytical procedures 
involved in nuclear forensics. In some cases, weeks or months 
may be required to obtain reliable results. This is clearly an 
area where additional research is called for, but there are 
some inherent physics limits to what can be done in this field.
    The complexity of the possible scenarios means that 
technical nuclear forensics is inherently a team effort, 
drawing expertise and specialized capabilities from across the 
federal government. The Department of Energy contributes 
broadly to this effort in line with the roles and 
responsibilities established by the president last August. 
Among our key contributions, let me mention a few here.
    First, DOE's Office of Emergency Operations will take 
custody of a terrorist nuclear device after it has been 
rendered safe in the field. Once the device has been 
transported to a secure location at the Nevada test site, DOE 
will oversee the collection of material samples and other 
forensic data.
    In the event of a nuclear detonation or nuclear material 
dispersion event in the United States, DOE on-the-ground teams 
will collect samples utilizing equipment and operational 
concepts developed by our colleagues at the Defense Threat 
Reduction Agency. The collection of samples for forensics 
purposes will be fully integrated with the other on-site 
activities carried out by DOE teams as part of their overall 
response to this catastrophic event.
    To support these and other forensics responsibilities, DOE 
conducts research and development aimed at improving the speed 
and accuracy of radiochemical analysis, and at developing 
sensors to provide near real-time information about the nature 
of a terrorist nuclear device. Drawing on the expertise of its 
national laboratories, DOE sponsors analytical studies of 
potential nuclear device designs, using advanced modeling and 
simulation tools developed for our own nuclear weapons program, 
to understand how an improvised nuclear device might be 
constructed. These efforts allow the calculation of signatures, 
including expected radioactive debris that would be compared 
against forensic results.
    An essential component of any forensics effort is a library 
of information against which to compare an unknown sample. DOE 
has been assigned responsibility for managing the Nuclear 
Materials Information Program, which is developing a database 
of information on nuclear materials worldwide to support 
technical nuclear forensics.
    Perhaps most importantly, DOE is responsible for sustaining 
the national laboratory system that underlies most of the 
interagency efforts described at today's hearing. During the 
Cold War, we built specialized facilities, developed unique 
scientific techniques, and assembled teams of scientists and 
engineers to support the design, production and testing of our 
own nuclear weapons. I think it is fair to say that all of the 
nation's technical nuclear forensics capability ultimately 
rests on the underlying science base around the accumulated 
knowledge it represents.
    As the national laboratory complex evolves to meet a new 
national security environment, it will be vitally important to 
ensure that maintain and strengthen this fundamental resource 
for the prevention of nuclear terrorism.
    That concludes my prepared remarks. I look forward to your 
questions.
    Thank you.
    [The statement of Mr. Aoki follows:]

                 Prepared Statement of Dr. Steven Aoki

    Chairman Langevin, Representative McCaul, members of the 
Subcommittee. Thank you for the opportunity to appear before you today 
to discuss nuclear terrorism and, in particular, the Department of 
Energy's efforts to sustain and improve our nation's capabilities to 
attribute threats involving nuclear weapons or weapons-usable nuclear 
materials introduced covertly into our country. I will begin by briefly 
addressing the specifics of the nuclear terrorism threat, the 
components of a national strategy to counter that threat, and the 
specific role that technical nuclear forensics and attribution can play 
in that strategy. I conclude by describing DOE's efforts to work with 
its interagency partners to strengthen national nuclear technical 
forensics and attribution capabilities.

Countering Terrorist Nuclear Weapons Threats to the Homeland
    In this post-Cold War world, nuclear terrorism may be the single 
most catastrophic threat that this nation faces--we must do everything 
we can to ensure against its occurrence. The focus of my testimony 
today involves covert delivery by sub-national terrorist groups, either 
at the bidding of a state sponsor supplying the nuclear warhead or on 
their own via purchasing or stealing a warhead. There are three main 
threat variants identified below in decreasing order of likelihood, but 
increasing order of consequence in terms of deaths, injuries, cleanup 
costs, etc.:
        <bullet> terrorists could acquire radioactive materials and 
        construct devices for dispersal--so
        <bullet> called radioactive dispersal devices (RDDs) or ``dirty 
        bombs'',
        <bullet> terrorists could acquire special nuclear materials 
        (SNM)--plutonium or highly-enriched uranium (HEU)--and build an 
        improvised nuclear device (IND),
        <bullet> terrorists could acquire a nuclear weapon from a 
        nuclear weapons state.
    The overall strategy to protect the United States from terrorist 
nuclear weapons threats has six components:
        <bullet> Determine terrorists' intentions, capabilities, and 
        plans to develop or acquire nuclear weapons
        <bullet> Deny terrorists access to the nuclear materials, 
        expertise, and other enabling capabilities required to develop 
        a nuclear device
        <bullet> Deter terrorists from employing nuclear devices
        <bullet> Detect and disrupt terrorists' attempted movement of 
        nuclear-related materials, weapons, and personnel
        <bullet> Prevent and respond to a nuclear terrorism attack
        <bullet> Define the nature and source of a terrorist-employed 
        nuclear device

Prevention
    Although the focus of today's hearing is nuclear forensics and 
attribution, I must reiterate that our number one priority is to keep 
key fissile materials--plutonium or highly-enriched uranium--out of the 
hands of terrorists. Absent access to sufficient quantities of such 
materials there can be no bomb. We cannot overstate the importance of 
this point. Making a sophisticated nuclear weapon small enough to fit 
on a modern ballistic missile is difficult. Making a crude and 
inefficient one delivered by a rental truck may not be. We cannot be 
certain that we have controlled knowledge; thus we must control 
materials.
    We are working hard to prevent terrorist acquisition of nuclear 
devices and fissile materials by:
        <bullet> Strengthening physical security of U.S. nuclear 
        weapons and weapons usable materials, Providing assistance to 
        Russia to strengthen protection, control, and accounting of its 
        nuclear weapons and materials,
        <bullet> Working with friends and allies to secure weapons-
        usable nuclear materials worldwide, and to strengthen security 
        at civil nuclear facilities,
        <bullet> Taking more aggressive steps to interdict illicit 
        trafficking in weapons-usable nuclear materials and related 
        technologies via strengthened export controls, cooperation with 
        other countries through DOE's Second Line of Defense and 
        MegaPorts programs, and the Proliferation Security Initiative.
    In July 2006, at the G-8 summit, Presidents Bush and Putin 
announced that they would create a Global Initiative to Combat Nuclear 
Terrorism to strengthen cooperation worldwide on nuclear materials 
security and prevention of terrorist acts involving nuclear or 
radioactive substances. Keeping nuclear materials out of the hands of 
terrorists--and where possible, eliminating potentially vulnerable 
weapons-usable materials--is the most effective means of prevention. 
Paired with UNSCR 1540, we now have both the legal mandate and 
practical means necessary for concrete actions to secure nuclear 
material against the procurement efforts of terrorists.
    Barriers to acquisition also provide an important element of 
deterrence. If terrorists believe that it will be extremely risky, or 
impossible, to acquire weapons or materials, they may be deterred from 
seeking them, or perhaps seek other avenues of attack. While we, of 
course, want to prevent all types of terrorism, deterring a devastating 
nuclear detonation has particular urgency.

Nuclear Forensics and Attribution
    Attribution--a capability to rapidly characterize and identify the 
source of a nuclear warhead or weapons usable nuclear materials either 
before or after an attack--is a key component of an overall strategy to 
deter nuclear terrorism. States will not provide nuclear weapons to 
terrorists if they know that we will find out and, under certain 
conditions (e.g., a witting transfer from a state sponsor to 
terrorists), retaliate. Moreover, post-attack attribution would provide 
critical information to help prevent follow-on attacks.
    Attribution involves the rapid fusion of information obtained via 
three sources: domestic law enforcement investigations of nuclear 
terrorist threats, associated collateral foreign intelligence received 
about those threats, and the technical analysis of the nuclear device 
or materials interdicted prior to detonation, or the debris and signals 
that result from a detonation. This latter source of information is 
called technical nuclear forensics. The elements of a nuclear forensics 
capability involve (1) collection of technical forensics data from the 
device or event, (2) lab analysis and reporting including comparison of 
collected data with a materials data base, and (3) interpretation and 
evaluation coupled with appropriate technical peer review.
    The types of questions that we want to answer in technical nuclear 
forensics and, more broadly via the attribution process include: What 
material is it? Is it U.S. material? If not, where did it come from and 
how did it get here? How, when and where was it produced? For nuclear 
devices: Was it an RDD or a nuclear explosive device? What fissile 
materials were used? What was the yield? What was the design?
    Post-detonation nuclear event forensics can provide key information 
about both the design and sophistication of a warhead, and about the 
origin of its fissile materials. During the period of nuclear testing, 
we gained much experience and critical information evaluating 
radioactive debris from Soviet above-ground nuclear tests, and from our 
own underground tests in Nevada. Covert delivery by terrorists presents 
a different challenge. For this challenge, a comprehensive 
international fissile materials data base would assist nuclear 
forensics efforts to correlate debris data with a particular reactor or 
enrichment facility that produced the material. It should be in every 
nation's interest to contribute to such a data base, both to help deter 
nuclear terrorism worldwide and to build confidence that it is a 
responsible steward of weapons usable fissile materials.
    One point I want to emphasize: during the Cold War, post-detonation 
analysis was carried out over a period of several months--it was 
important but not time-urgent to complete it. We recognize that a 
nuclear detonation in a U.S. city would create enormous pressures to 
get solid information out in the shortest possible timeframe. As a 
result, our efforts to sustain and improve nuclear forensics 
capabilities include substantial efforts to shorten analytical 
timelines.

DOE contributions to technical nuclear forensics
    The United States recently has made important progress, both in 
policy and technology, towards establishing a national technical 
nuclear forensics capability. As pointed out in Vayl Oxford's 
testimony, roles and responsibilities for various U.S. government 
agencies were established by the President last August and are being 
implemented. DHS is working to coordinate efforts among agencies, and 
identify capability gaps, in national technical nuclear forensics 
capabilities. This includes close coordination with the law enforcement 
and intelligence communities. At the initiative of the DoD, a national 
capability for post-detonation forensics became operational at the end 
of 2005. DHS is working to develop a concept of operations and to 
advance and ensure appropriate capabilities related to forensic 
analysis of interdicted nuclear materials. DOE has responsibility to 
develop a concept of operations and ensure appropriate capabilities to 
assess an interdicted nuclear device.
    DOE has been engaged in a wide range of activities in support of 
this interagency effort. Its role has been key because most, if not 
all, of the capabilities that the nation draws upon for technical 
nuclear forensics reside at DOE's national laboratories. To date, 
forensics capabilities relating to such areas as nuclear weapons device 
modeling, nuclear materials production, radiochemistry and associated 
specialized facilities, advanced computations and simulations, and the 
physics and chemistry of fissile materials have been sustained in large 
part by leveraging off activities carried out in NNSA's nuclear weapons 
program. In the following discussion, we address some of the details of 
DOE's efforts in support of technical nuclear forensics.

            Pre-and Post-Detonation Nuclear Device Missions

    NNSA's Office of Emergency Operations provides operational 
capabilities and support in the following areas in addition to its 
direct support to the Attorney General in the render safe mission for 
interdicted nuclear devices in the United States:
        <bullet> Develop and sustain pre-detonation nuclear device 
        forensics concept of operations and associated capabilities.
        <bullet> Take custody of the rendered safe nuclear explosive 
        devices and support the collection of material samples and 
        other forensic data from such devices.
        <bullet> As part of the DoD-developed concept of operations for 
        the post-detonation mission, support ground sample collection 
        after a nuclear detonation or dispersion of nuclear material 
        within the United States. This includes providing a reliable 
        capability to deploy, support domestic ground sample 
        collection, and deliver post-detonation nuclear debris samples 
        for shipment to designated laboratories.

            Nuclear Forensics R&D--Post-detonation analysis

    NNSA's Defense Nuclear Nonproliferation (DNN) organization is 
sponsoring advanced R&D activities at our national laboratories to 
improve techniques for radiochemical analysis of bomb debris and has 
also sponsored ground-breaking work on other diagnostics tools. It is 
developing the next generation of post-nuclear detonation ground based 
forensics capabilities. Emphasis is on reducing timelines for producing 
analytical results. This work includes advanced sampling technology and 
collection tools for rapid, safe, precise post-detonation nuclear 
sample collection and analysis. It also includes nuclear event modeling 
to predict activation and entrainment of contaminants, deposition 
pattern of debris, remote sample collection/recovery concepts and rapid 
in-field analytical capabilities.

     Nuclear Forensics R&D--Prompt output diagnostics measurements

    DNN is also sponsoring work to improve capabilities to determine 
nuclear device information directly through collection and analysis of 
the prompt radiation diagnostics from a detonation. Hi-fidelity, near-
field, prompt diagnostics capabilities are being developed that will 
provide greater sensitivity and thus greater insight into a terrorist 
nuclear device design than the current suite of satellite and seismic 
sensors used for world-wide nuclear event reporting, attack assessment 
and treaty monitoring.

                Nuclear Counterterrorism Design Support

    NNSA's Nuclear Counterterrorism Design Support (NCDS) program is 
focusing the talent, capabilities, and resources of our nuclear weapons 
program on the threat of nuclear terrorism. In place since 2000, the 
NCDS program provides an essential element of technical support to our 
nation's efforts to prevent the detonation of a terrorist nuclear 
device. Under NCDS, weapons designers at our national laboratories 
analyze and model potential IND designs, drawing on computational 
tools, experimental data, and expertise originally developed in the 
nuclear weapons program. The knowledge gained is applied to nuclear 
search and detection, forensic analysis, nuclear device render-safe, 
nuclear facility security, and intelligence assessments.
    NCDS analysis is drawn on extensively by other DOE components as 
well as by other United States government agencies with associated 
responsibilities.

     Nuclear Forensics R&D--Calculation of IND output and rad-chem 
                               signatures

    In addition to its NCDS work, NNSA's Defense Programs organization 
is carrying related work in the following areas:
        <bullet> Via device modeling studies of INDs, identification 
        and characterization of signatures that discriminate various 
        IND designs from traditional U.S. and foreign warheads.
        <bullet> For pre-detonation forensics work, assessment of 
        signatures associated with plutonium and HEU samples derived 
        from domestic and foreign sources. Work currently includes 
        physical and chemical analysis to associate materials 
        processing knowledge to product material signatures.
        <bullet> Support to attribution and forensics communities by 
        providing IND experts to participate in exercises, more 
        accurately identify the range of threats, and provide education 
        on IND design.
    Defense Programs, including through its Science Campaign, is 
seeking to improve capabilities to calculate and assess weapon 
outputs--both prompt (gamma rays, neutrons, x-rays, and debris kinetic 
energy) and long-lived radionuclide debris--released from a nuclear 
detonation. The Advanced Simulation and Computations (ASC) program is 
improving computer simulation capabilities for technical nuclear 
forensics. Improved physics models will enable the ASC codes to be 
applied more reliably to model the breadth of threats, including low-
technology INDs, and provide predictions regarding the post-explosion 
radionuclide debris isotopes. This work facilitates more timely and 
responsive nuclear forensics capabilities.

              Nuclear Materials Information Program (NMIP)

    Last year, the President established the Nuclear Materials 
Information Program (NMIP)--an interagency effort managed by DOE's 
Office of Intelligence and Counterintelligence to:
        <bullet> Develop an integrated system of information from all 
        sources concerning worldwide nuclear material holdings and 
        their security status;
        <bullet> As part of this effort, collect signatures of nuclear 
        materials to support forensics and attribution assessments; and
        <bullet> Identify opportunities to work with international 
        partners directly to share information on nuclear materials 
        characteristics and security. International Cooperation

  Defense Nuclear Nonproliferation is advancing international nuclear 
    forensics cooperation in Central Asia, which remains a focus of 
   engagement due to the region's integral role in the former Soviet 
weapons complex and the willingness of the current governments to work 
      with NNSA and U.S. laboratory personnel. This international 
   collaboration focuses on joint collection and characterization of 
   uranium ore, ore concentrate and tailings, which expands the U.S. 
knowledge base and contributes to the overall nuclear counterterrorism 
 effort. To date, work has focused on uranium mining and milling sites 
    in the Central Asian nations of Tajikistan and Kyrgyzstan. NNSA 
   coordinates its Central Asia work closely with the DHS, which is 
   conducting similar international outreach activity in Kazakhstan.

                         Search and Render Safe

    Should we detect nuclear materials or a suspected nuclear device, 
the DOE--through its national laboratory system--deploys highly-trained 
teams of experts to search for clandestine nuclear materials or 
warheads and, if necessary, to disarm and dispose of a terrorist 
nuclear device. These teams work in close partnership with the DoD, DHS 
and the FBI in managing our national response to nuclear terrorism. The 
DOE has a robust research program to support its nuclear search and 
render-safe mission and a complementary technology integration program 
that develops tools for use by its emergency response teams in the 
field.

                      Sustaining Key Capabilities

    A key challenge is to ensure that we sustain and strengthen nuclear 
forensics capabilities in support of nuclear counterterrorism in an era 
when our nuclear weapons program is undergoing substantial change. This 
includes sustaining the people at our national laboratories involved in 
these efforts and the specialized laboratory facilities and 
experimental and analytical tools that they employ to carry out their 
job. Along these lines, in coordination with DHS and DOD, the DOE has 
initiated a study to be conducted by the National Academy of Science to 
examine the nation's nuclear forensics capabilities and provide 
findings and recommendations to sustain and improve them including 
technical, infrastructure, and human resource elements, and 
international collaboration, cooperation and information sharing.
    Finally, while we have made great progress over the past several 
years, more remains to be done in fleshing out the technical and policy 
dimensions of nuclear forensics and attribution.
    Thank you for your attention; I would be happy to take questions.

    Mr. Etheridge. Thank you, sir.
    Let me just say to the other panelists, it looks like we 
are going to have a vote call somewhere between 2:30 p.m. and 
2:45 p.m., so we are going to try to get through this part with 
your help before they call the vote. We will stay around and 
try to finish the testimony and do the questions after the 
vote, because it could take up to 45 minutes to 1 hour with the 
vote.

 STATEMENT OF MIKE EVENSON, ASSOCIATE DIRECTOR FOR OPERATIONS, 
     DEFENSE THREAT REDUCTION AGENCY, DEPARTMENT OF DEFENSE

    Mr. Evenson. Mr. Chairman and distinguished members of the 
subcommittee, it is an honor to be here today to address the 
Department of Defense's role, responsibility and capabilities 
in support of the National Technical Nuclear Forensics program. 
I have already submitted my written statement and will 
summarize my remarks.
    First, I believe that international cooperation is critical 
to the success of any attribution effort. However, to date 
there has been limited international collaboration. 
International cooperation can help improve certainty of 
attribution by expanding the information and data available to 
investigators, and help increase public confidence in an 
attribution conclusion. This would serve to deter and dissuade 
potential enemies by reinforcing this strategic message. U.S. 
government policy needs to be developed for the sharing of 
forensically valuable nuclear data without compromising U.S. 
government nuclear secrets.
    Second, in order to meet the very severe timelines required 
of the technical forensics, we must move past the traditional 
radiochemistry technology we use today. While DTRA and its 
partners represented at this table have made huge improvements 
in our timelines--approximately a 93 percent improvement--we 
are still judged as too slow. Thus, we must find new 
technologies that allow much more rapid and certain technical 
conclusions.
    Third, despite my belief that technical and nuclear 
forensics will provide major, perhaps critical, information, we 
all need to recognize that the classical forensics work that 
the FBI has always done and is renowned for is mostly like to 
yield the definitive answer of who did it. We must not lose 
sight of that as we collect radioactive debris. We must be 
guided by the on-scene FBI lab personnel and make sure that we 
collect the other debris that may yield fingerprints, trucks 
axles, or other definitive evidence.
    My last point concerns strategic communications. During a 
recent National Defense University-sponsored workshop on 
nuclear attribution, attendees, including congressional staff, 
stressed the incredible pressure the president and his advisors 
would be under to make a rapid attribution determination, both 
for response purposes and to prevent a potential follow-on 
attack. Policy advisors acknowledged the need to develop 
further the nation's strategic communication of attribution 
capabilities for deterrence, dissuasion and assurance purposes.
    Our NTNF capability must be able to respond and deliver the 
initial and final technical conclusions necessary to protect 
the nation and make well-informed decisions. We have made 
noteworthy progress, but still have a long way to go in 
refining the U.S. government technical nuclear forensics 
capabilities, such as more robust collection capabilities and 
improved rapid analysis and data evaluation capabilities, to 
meet the threat posed by nuclear terrorism.
    No single-agency effort can ensure success. Meeting this 
threat requires the focused integration and coordination of our 
full NTNF capabilities, as well as international capabilities 
and expertise.
    Mr. Chairman, this concludes my remarks. I look forward to 
answering your questions.
    [The statement of Mr. Evenson follows:]

                Prepared Statement of Michael K. Evenson

    Introduction
    Mr. Chairman and distinguished members of the subcommittee, it is 
an honor to be here today to address the Department of Defense's ( DoD) 
support to the National Technical Nuclear Forensic (NTNF) program. I am 
the Associate Director for Operations within the Defense Threat 
Reduction Agency (DTRA), the primary organization within the Department 
of Defense (DoD) charged solely and full-time with reducing the threat 
of weapons of mass destruction (WMD). Countering chemical, biological, 
radiological, and nuclear weapons is the reason for the agency's 
existence. We perform research and development and provide operational 
support to enhance DoD nonproliferation, counterproliferation, and 
consequence management capabilities. Our primary customers are the 
Combatant Commanders. Our mission is guided by the National Strategy to 
Combat WMD, the National Strategy for Combating Terrorism, and 
direction provided by the Secretary of Defense and the Chairman of the 
Joint Chiefs of Staff.
    DTRA works closely with partners across DoD, the United States 
Government (USG), academia, and the private sector, as well as with our 
allies and friends in the performance of our mission. Our efforts in 
support of the national nuclear forensics capability are conducted in 
close collaboration with the Department of Homeland Security (DHS), 
Department of Energy (DOE) and its National Laboratories, Department of 
State, Department of Justice, and the office of the Director of 
National Intelligence.
    Policy advisors have underscored the importance of international 
cooperation both to attribution and prevention; however, to date there 
has been limited international collaboration. International cooperation 
can make attribution more certain by expanding the information and data 
available to investigators, and increase confidence in an attribution 
decision. This would serve to deter and dissuade by reinforcing the 
strategic message. However, we must balance the need for the sharing of 
forensically valuable nuclear data without compromising US nuclear 
secrets.

    Background
    The Defense Department's interest in nuclear forensics and 
attribution rests on more than the need to provide information that 
would guide the appropriate national response to a nuclear event. We 
believe that highly capable forensics and attribution would enable this 
nation to stop follow-on attacks, and serve to deter states that may 
assist nuclear terrorists, thereby making nuclear use more difficult 
for terrorists. As noted in the 2000 Defense Science Board report on 
Unconventional Nuclear Warfare Defense, one of the strongest elements 
of protection is deterrence through the threat of reprisal. The goal of 
stopping subsequent attacks serves to define the timelines for 
accomplishment of attribution and substantially increases the need for 
a rapid and authoritative attribution system which, in turn, requires 
exquisite nuclear forensics capabilities.
    Nuclear forensics is not a new mission for DoD. The department's 
existing nuclear forensics capability is the result of programs that 
span six decades and includes activities to assess foreign nuclear 
weapons testing activities, monitor and verify nuclear arms control 
treaties, and to support intelligence and law enforcement activities. 
During the Cold War, attribution was a simpler matter as we knew who 
would be the likely aggressor, and had the means for detecting attacks 
and confirming the origin of attack. However, nuclear proliferation and 
the global threat of terrorism mean that we are more likely to face 
covert rather than readily observable means of nuclear attack. In 
today's security environment, post-detonation forensics to support 
attribution requires much faster answers to different questions under 
the pressure of an extreme crisis without prior notice.
    In 2000, DTRA initiated the Domestic Nuclear Event Attribution 
(DNEA) program to improve USG post-detonation nuclear forensics 
capabilities and develop a focused system for rapid and accurate 
attribution of a domestic nuclear or radiological event. DNEA was 
created as a joint effort of military, intelligence, technical and law 
enforcement communities. In 2005, DTRA conducted a successful concept 
demonstration of DNEA capabilities, and continues its efforts to 
operationalize a process and capabilities for producing technical 
nuclear forensics information to fulfill DoD's global responsibilities 
under the National Technical Nuclear Forensics (NTNF) program. This 
effort to ``operationalize'' post-event nuclear forensics is focusing 
on collection of samples, scientific analysis of the samples, and 
subsequent reporting of findings that meet legal and scientific 
requirements.

The DoD Role
    The recent signing of the NTNF policy by the President specifically 
assigns DoD the responsibility to ensure a worldwide post-detonation 
NTNF capability, including ground and air sample collection, analysis 
of post-detonation debris, developing and sustaining a concept of 
operations, and supporting enhancements to post-detonation scientific 
and technical capabilities. DoD support to NTNF is being led by the 
Assistant to the Secretary of Defense for Nuclear, Chemical, and 
Biological Defense Programs. DTRA and other DoD elements, such as the 
Air Force Technical Applications Center, provide specific, supporting 
operational capabilities.
    DTRA maintains the capabilities developed under the DNEA program, 
including a ground sample collection capability, a forensics laboratory 
process, and an exercise program to sustain post-detonation NTNF 
capabilities. DTRA will partner with DOE to provide support in domestic 
incidents with DTRA developed capabilities including= a ground sample 
collection capability, a forensics laboratory process, and as mentioned 
earlier, an exercise program to sustain post-detonation NTNF 
capabilities. We also maintain a special cadre of select personnel and 
equipment to respond globally to any nuclear or radiological incident.
    The DTRA Nuclear Forensics R&D Program is an integral component of 
a coordinated interagency effort, rather than different potential paths 
to meet similar requirements. Our investment areas include: Prompt 
Nuclear Effects Data Collection and Analysis, which is key to the 
precise measurement of nuclear yield; Debris Sample Collection and 
Field Measurements to develop more robust ground robotic, unmanned 
aerial vehicle and manual collection capabilities; Debris Analysis to 
develop novel approaches and new technologies to achieve rapid and 
precise isotopic measurements; Data Evaluation and Knowledge Management 
to improve the application and management of signatures, databases, 
models, calculations and expertise to produce consensus results; 
Integration to bring efficient, full national post-detonation NTNF 
capabilities to bear across the interagency in a crisis environment 
providing accurate and rapid initial and final results; and other DoD 
nuclear forensics missions, which may be non-NTNF, but support 
development of foundational capabilities to provide technical 
conclusions.
    Additionally, DTRA manages and sponsors DoD NTNF exercise and 
evaluations, is working to fully integrate DoD's exercise and 
evaluation program into the DHS NTNF exercise program, and has begun 
crafting DoD's integrated NTNF concept of operations. DTRA supports the 
DHS and the FBI with hardware, systems, training, exercises and 
evaluations, and planning for a response to a nuclear incident.
    I would like to note that NTNF capabilities rely on the aging 
physical infrastructure and human expertise that support the USG 
nuclear weapon programs. While the interagency effort described here 
today makes a small investment in revitalizing aspects of this national 
treasure, further erosion in the nuclear weapons program will severely 
impact our nuclear forensic analysis and evaluation capabilities. A 
deliberate and concerted effort is needed to ensure these critical 
capabilities will be available when the nation needs them most.
    In addition, I would like to emphasize that neither DTRA nor DoD 
performs the forensics mission in a vacuum. Many components in the USG, 
including the DNDO, DOE, FBI, and the Intelligence Community all play a 
vital role in that effort.

Conclusion
    During a recent National Defense University sponsored workshop on 
nuclear attribution, attendees, including Congressional staff, stressed 
the incredible pressure that the President and his advisors would be 
under to make a rapid attribution determination, both for response 
purposes and to prevent a potential follow-on attack. Policy advisors 
acknowledged the need to develop further the nation's strategic 
communication of attribution capabilities for deterrence, dissuasion, 
and assurance purposes. Our NTNF capability must be able to respond and 
deliver the initial and final technical conclusions necessary to 
protect the nation and make well informed decisions.
    We have made noteworthy progress, but still have a long way to go 
in developing and fielding capabilities, such as more robust collection 
capabilities and improved rapid analysis and data evaluation 
capabilities, to meet the threat posed by nuclear terrorism. No single 
Agency or effort can ensure success. Meeting this threat requires the 
focused integration and coordination of full NTNF capabilities, as well 
as international capabilities and expertise.
    Mr. Chairman, this concludes my remarks. I would be pleased to 
respond to your questions.

    Mr. Langevin. [Presiding.] Thank you very much.

STATEMENT OF VAHID MAJIDI, ASSISTANT DIRECTOR, WEAPONS OF MASS 
   DESTRUCTION DIRECTORATE, FEDERAL BUREAU OF INVESTIGATION, 
                     DEPARTMENT OF JUSTICE

    Mr. Majidi. Good afternoon, Chairman Langevin, Ranking 
Member McCaul and members of the subcommittee. I am pleased to 
be here today to demonstrate the commitment of the FBI to 
strengthening our nation's ability to conduct effective 
technical nuclear forensics.
    Our number one priority is to protect the nation from 
terrorist attack. Within that priority, the weapons of mass 
destruction threat is our most pressing concern. The FBI 
established a WMD Directorate in 2006 to develop a 
comprehensive approach for combating WMD proliferation.
    We began by consolidating the units within the FBI that 
were addressing the response, investigation, intelligence, 
analysis, dissemination and countermeasures program into one 
unified structure. Paramount to our prevention effort is a 
strong forensic program that includes all aspects of WMD and 
traditional forensic expertise.
    We also recognize that it is through an effective 
interagency cooperation that the WMD threat is best addressed. 
The FBI Laboratory Division is central to our support to the 
interagency effort in nuclear forensics. The laboratory 
provides the personnel, equipment and know-how to effect the 
safe and secure collection of radiological and nuclear 
materials. Furthermore, the laboratory provides training on WMD 
crime scene awareness so that our personnel can properly enter, 
exit and work within any scene where biological, chemical, 
radiological or nuclear materials might be present.
    Beginning this fall, we are pleased to be offering WMD 
crime scene awareness training to selected personnel from the 
Department of Defense, Department of Homeland Security, and 
Department of Energy to strengthen our interagency 
collaboration.
    No agency has the necessary resources and capabilities to 
independently perform technical WMD forensics. The FBI 
laboratory leverages the capability of the interagency 
community to conduct and direct the forensic examination of the 
evidence that is contaminated or contains hazardous material. 
To that end, the FBI has formalized partnerships with a variety 
of government, academic and private labs to carry out specific 
examination of our evidence.
    For example, we have formal agreements in place with 
Savannah River National Laboratory, Lawrence Livermore National 
Laboratory, the U.S. Air Force Technical Applications Center 
for forensic analysis of recovered radiological material, 
special nuclear materials, recovered improvised nuclear 
devices, and debris resulting from a detonated device.
    The laboratory support for technical nuclear forensics is 
culminated through our ability to conduct traditional forensics 
on radiological and nuclear materials--in other words, to 
perform the very forensic examination for which the FBI 
laboratory is world renowned. The FBI laboratory has taken the 
lead by developing and implementing the hazardous evidence 
analysis team, or HEAT program.
    Normally, we transport evidence from the crime scene to the 
FBI laboratory. For WMD crimes, however, we have made the 
conscious decision to refrain from transporting any such 
evidence to our laboratory until we demonstrate that no 
residual WMD contamination exists. Nonetheless, the 
investigation process requires prompt traditional forensic 
signatures such as latent prints, human DNA analysis, and trace 
evidence.
    To ensure timely traditional forensic examination of 
evidence, we transport the examiners to the evidence at one of 
the partner laboratories. The HEAT program provides additional 
training for qualified forensic examiners and technicians, 
which allows them to operate in a WMD laboratory environment 
such as a hot cell for nuclear materials at biosafety level 
three or four suite for pathogens or a chemical surety facility 
for toxic chemicals.
    In short, the FBI is proud to be a member of the dedicated 
interagency community focused on WMD forensic issues to protect 
our nation.
    Thank you for your time. I look forward to answering your 
questions.
    [The statement of Mr. Majidi follows:]

               Prepared Statement of Vahid Majidi, Ph.D.

    Good morning, Chairman Langevin, Ranking Member McCaul, and members 
of the Subcommittee. I am pleased to be here today to demonstrate the 
commitment of the Federal Bureau of Investigation (FBI) to 
strengthening our nation's ability to conduct effective technical 
nuclear forensics.
    The number one priority of the FBI is to protect the nation from 
terrorist attacks. Within that priority, the Weapons of Mass 
Destruction (WMD) terrorist threat is clearly our most pressing 
concern. The FBI established the WMD Directorate in 2006 to bring 
together the units within the FBI that were addressing the response, 
investigation, intelligence dissemination and analysis and 
countermeasures programs into one unified structure. This unity of 
leadership has strengthened the FBI's ability to prevent a WMD 
terrorist attack significantly. Key to our prevention efforts is a 
strong forensic program that includes all aspects of WMD and 
traditional forensic expertise. Additionally, we at the FBI recognize 
that it is through interagency cooperation that the WMD terrorist 
threat is best addressed.
    The FBI Laboratory Division is central to our support to 
Interagency efforts of the DOJ, DHS, DOE, DOD and members of the 
Intelligence Community (Interagency) in nuclear forensics. We view our 
Laboratory as the world's premiere forensics laboratory and are proud 
of the role it fulfills in preventing WMD terrorism and in responding 
to crimes when they occur. The Laboratory's Hazardous Materials 
Response Unit (HMRU) provides the personnel, equipment, and know-how to 
effect the safe and secure collection and transport of radiological and 
nuclear materials and debris to an appropriate facility for analysis 
and characterization These capabilities include the people who work at 
HMRU in Quantico, Virginia, and their gear, as well as those of 27 
Hazardous Materials Response Teams (HMRTs) that are trained, equipped 
and certified by HMRU. These teams are located throughout the United 
States (US) with various FBI Field Divisions and provide over 400 
personnel to augment our operational response capabilities.
    HMRU also provides training on WMD Crime Scene Awareness so that 
our personnel will know how to properly enter, exit and work within any 
scene where biological pathogens, toxic chemicals and radiological or 
nuclear materials might be present. This training, which historically 
has been directed toward our own personnel, has recently been adapted 
to provide WMD crime scene awareness training for personnel from the 
Interagency. We are pleased to be offering the training beginning this 
fall to selected personnel from the Department of Homeland Security 
(DHS), Department of Defense (DOD), and Department of Energy (DOE). In 
keeping with the importance we attach to nuclear forensics, we have 
targeted those DHS, DOD, and DOE elements most directly involved in 
nuclear activities as the first priority to receive this training from 
the FBI.
    No one agency has the necessary resources, experience and 
capabilities to solely perform technical WMD forensics. The Laboratory 
leverages the capabilities of the Interagency through the efforts of 
its Chemical Biological Science Unit (CBSU), an all-discipline WMD 
analysis unit. CBSU develops and maintains the Laboratory's ability to 
conduct and/or direct the forensic examination of evidence that either 
contains or is contaminated with hazardous chemical, biological or 
radiological material. To that end, CBSU has formalized partnerships 
with a variety of government, academic and private labs to carry out 
specific examinations of FBI evidence.
    We have formal agreements in place with Savannah River National 
Laboratory (SRNL), Aiken, South Carolina for recovered radiological 
materials and detonated radiological dispersal devices (RDDs); with 
Lawrence Livermore National Laboratory (LLNL), Livermore, California, 
for recovered Special Nuclear Materials as well as intact improvised 
nuclear devices (INDs); and with the US Air Force Technical 
Applications Center (AFTAC) for debris resulting from the detonation of 
an IND.
    In November 2006, we began operations at SRNL of the Radiological 
Evidence Analysis Laboratory Suite (REALS), which was stood up with our 
funds plus funding from DHS. REALS provides dedicated space at SRNL for 
our forensic examiners and technicians to perform selected activities, 
including the storage of evidence. The joint DHS/FBI funds also enabled 
us to begin planning and designing a unique set of fully functional 
forensic laboratory spaces that we refer to as the Radiological 
Evidence Examination Facility (REEF). Thanks to specifically-targeted 
Congressional funding received this past Fiscal Year (FY), we began 
renovations of existing space at SRNL to create REEF. It is projected 
to become fully functional in FY 2009, thereby allowing our Laboratory 
examiners and technicians to conduct a full range of traditional 
forensic examinations on evidence that is contaminated with nuclear 
materials.
    The final pillar to our Laboratory's support for technical nuclear 
forensics speaks to our ability to conduct traditional forensics on 
radiological and nuclear materials--in other words, to perform the very 
forensic examinations for which the FBI Laboratory is so well-known. In 
this case, CBSU has also taken the lead, both domestically and 
internationally, by developing and implementing the Hazardous Evidence 
Analysis Team or HEAT program. That program responds to the altered 
operational dynamic that prevails when we investigate a crime or 
suspicious event involving WMD. Normally, we transport evidence from a 
crime scene to the FBI Laboratory. For WMD crimes, though, we have made 
the conscious decision to refrain from transporting any such evidence 
to our Laboratory in Quantico until we can demonstrate that no residual 
WMD contamination exists.
    But the needs of the investigation to process the evidence for 
traditional signatures of interest--such as latent fingerprints, human 
DNA analysis, and trace evidence--are immediate. To ensure we begin 
such traditional examinations promptly, we have flipped the dynamic, 
and we transport the examiners to the evidence at one of partner 
laboratories. The HEAT program takes our trained and qualified forensic 
examiners and technicians from across the Laboratory and provides 
additional training which allows them to operate in a WMD laboratory, 
such as in a hot cell for nuclear materials, a Biosafety Level 3 or 4 
Suite for biological pathogens or a Chemical Surety Materiel laboratory 
for toxic chemicals. We certify our personnel through the HEAT program 
as qualified examiners and technicians in their discipline. We believe 
HEAT has been a success, with more than 60 examiners and technicians 
trained and certified, representing the various forensic disciplines in 
our Laboratory. Our examiners and technicians profit, gaining the 
confidence and skills needed to conduct their demanding tasks in an 
altered environment. The investigation is supported by ensuring we have 
a cadre of such trained and certified personnel who are ready to deploy 
immediately when the need arises. Through this training and 
certification process, we are learning what modifications, if any, are 
needed to conduct traditional forensic techniques when the work must be 
performed in a radiological or nuclear laboratory or, in the more 
general case, in any WMD laboratory, such as those of our partners with 
DHS at NBACC and with DOD at the Edgewood Chemical Biological Center. 
Again, as with our novel nuclear forensic examiner program, we are 
unaware of any program similar to HEAT with any of our international 
partners, but we are certainly anxious to share our experiences with 
them.
    Thank you for time, I look forward to answering your questions.

    Mr. Langevin. Thank you, Dr. Majidi.
    Before we go to the next witness, you heard the buzzers 
going off. That means that there is a vote on right now. My 
plan is to finish the testimony of the last two witnesses. We 
will recess and then return for questions, and then go to the 
second panel.
    Before I do that, I want to thank Mr. Etheridge for 
stepping in and chairing and opening the hearing for me. I was 
in a markup in the House Intelligence Committee, and obviously 
couldn't be here. So I want to thank the witnesses for being 
here today.

    Prepared Opening Statement of the Honorable James R. Langevin, 
Chairman, Subcommittee on Emerging Threats, Cybersecurity, and Science 
                             and Technology

    The subcommittee will now move on to the markup of an amendment in 
the nature of a substitute to HR 3621. The Nuclear Forensics and 
Attribution Act. I would like to again congratulate my colleague 
Congressman Schiff for introducing this legislation and for working 
collaboratively with me to develop the amendment in the nature of a 
substitute we will consider today.
    The Nuclear Forensics and Attribution Act expresses the sense of 
Congress that the President should:
        <bullet> purse bilateral and multilateral agreement to 
        establish an international framework for determining the source 
        of any confiscated nuclear material or weapon, as well as the 
        source of any detonated weapon and the nuclear material used in 
        such a weapon;
        <bullet> develop protocols for the dissemination of sensitive 
        information relating to nuclear materials to the extent 
        required by such agreements; and
         <bullet>develop expedited protocols for the dissemination of 
        sensitive information needed to publicly identify the source of 
        a nuclear detonation.
    It also amends the Homeland Security Act of 2002 to task the 
Secretary with the development of methods to attribute nuclear or 
radiological material--both within the Domestic Nuclear Detection 
Office and in partnership with other Federal agencies--to its source 
when such material is intercepted by the United States, foreign 
governments, or international bodies or dispersed in the course of a 
nuclear terrorist attack or other nuclear or radiological explosion. 
The Amendment in the nature of a substitute builds on and strengthens 
these ideas by:
        <bullet> Emphazing that the development of a robust nuclear 
        forensics capability will depend chiefly on an expertly trained 
        workforce in this area, and the recognition that our workforce 
        in this area is currently waning and that we must turn this 
        trend around.
        <bullet> It also tasks the Secretary of Homeland Security to 
        act as the integrator and steward of our national nuclear 
        forensics capabilities. While it is a certainty that the 
        cooperation of all the agencies represented here is needed for 
        success in this mission, clearly specifying this duty for the 
        Secretary should provide the needed leadership for success.
        <bullet> The amendment further requires the Secretary to report 
        annually to Congress on the activities of the interagency group 
        as well as the development and maintenance of the needed expert 
        workforce;
        <bullet> And finally, it authorizes $20 million per year for 
        the next three fiscal years for this effort.
    I would also like to thank Ranking Member McCaul for his 
contributions on many of the topics just mentioned to strengthen the 
underlying bill. I appreciate his efforts and am pleased that this 
subcommittee continues to be a model of bipartisanship.

    Mr. Langevin. Mr. Grant, you are now recognized for 5 
minutes.

 STATEMENT OF ANDREW GRANT, ACTING DIRECTOR FOR WMD TERRORISM, 
    BUREAUS OF INTERNATIONAL SECURITY AND NONPROLIFERATION, 
                      DEPARTMENT OF STATE

    Mr. Grant. Good afternoon, Chairman Langevin, Ranking 
Member McCaul and distinguished members of the subcommittee. 
Thank you for the opportunity to provide remarks on the State 
Department's role in supporting the U.S. government's nuclear 
forensics program.
    As others have stated already, the U.S. government is 
working to develop the appropriate cooperation with its 
international partners so that each day we are improving our 
ability to conduct effective nuclear forensics when and where 
it is needed. The Department of State supports this in a 
variety of ways. The Department of State has always contributed 
to the policy and program development of the U.S. nuclear 
forensics effort and State Department personnel today work at 
the Domestic Nuclear Detection Office and assist in operations 
at the National Technical Nuclear Forensics Center in the 
Department of Homeland Security.
    Also, the Department of State interacts regularly with the 
IAEA through participation in the Illicit Trafficking Database 
program. Finally, the Department of State builds international 
support to improve nuclear forensics, and where necessary 
coordinates deployment of U.S. technical or investigative teams 
for forensics.
    The president has made clear his view on the importance of 
building international partnerships to carry out nuclear 
forensics, with specific commitments in the Global Initiative 
to Combat Nuclear Terrorism and the Bratislava initiative. 
These initiatives highlight the need to improve capabilities 
for response, mitigation and investigation, including 
development of technical means to identify nuclear material or 
other radioactive materials in substances that are or may be 
involved in a nuclear incident. Through the Global Initiative, 
over 60 partner nations have committed to this objective as a 
key element of global capacities to combat nuclear terrorism.
    Supporting our political commitment to strengthen nuclear 
forensics, the Department of State also chairs the Interagency 
Nuclear Trafficking Response Group, or NTRG. The NTRG 
coordinates the U.S. government's response to international 
forensics and radioactive material trafficking incidents. If 
deemed necessary, the Department of State also leads 
coordination for the Foreign Emergency Support Team, or FEST, 
an interagency team that can quickly deploy anywhere in the 
world to assist U.S. embassies in our responses to acts of 
terrorism, including incidents involving nuclear or 
radiological material.
    Although nuclear forensics is often associated with 
activities conducted in post-detonation environments, nuclear 
forensics is also extremely important to combat nuclear 
smuggling. As part of a shared commitment with our 
international partners to improve control of nuclear materials, 
shut down trafficking networks and routes, and prosecute 
nuclear smugglers, we are assisting other government to 
strengthen their own nuclear forensics capacity, and thus 
strengthen our collective nuclear forensics effort.
    Our work with the Georgians in a successful prosecution of 
a 2006 case involving highly enriched uranium, or HEU, is a 
noteworthy example. This month, a U.S. team went to Georgia to 
help the Georgian government align its nuclear forensics 
procedures with recent IAEA guidance on nuclear forensics which 
we helped create.
    The U.S. government also coordinates with the international 
community on technical nuclear forensics activities through the 
International Technical Working Group, or ITWG. The ITWG also 
works closely with the IAEA to provide member countries with 
support for forensics analysis. Priorities include the 
development of common protocols for the collection of evidence 
and laboratory investigations, organization of forensics 
exercises, and technical assistance to requesting nations. 
Through the ITWG, the U.S. can provide technical assistance on 
nuclear forensics to countries in response to specific 
requests.
    The Department of State will continue to support and lead 
in many areas to further develop our own nuclear forensics 
capacity. We will also continue to identify and maximize 
opportunities where our partners can assist us in our efforts 
to strengthen our nuclear forensics capacity. In doing so, we 
save lives and strengthen our chances to identify threats.
    This concludes my summary. I have also submitted a formal 
statement. Distinguished members of the subcommittee, I thank 
you and I am happy to answer any of your questions.
    [The statement of Mr. Grant follows:]

                 Prepared Statement of Andrew F. Grant

Introduction
    Good afternoon Chairman Langevin, Ranking Member McCaul, and 
distinguished members of the subcommittee. Thank you for the 
opportunity to provide remarks on the Department of State's role in 
supporting the U.S. government's nuclear forensics program. As others 
have noted, the U.S. government is working to develop the appropriate 
cooperation with international partners so that each day we are 
improving our ability to conduct effective nuclear forensics when and 
where it is needed.

Roles and Responsibilities
    The U.S. government aims to establish global capacity to conduct 
pre-detonation and post detonation nuclear forensics anywhere necessary 
to support U.S. interests. The Department of State supports this in a 
variety of ways. The Department of State has always contributed to the 
policy and program development of the U.S. nuclear forensics effort and 
State Department personnel also work at the Domestic Nuclear Detection 
Office and assist in operations at the National Technical Nuclear 
Forensics Center. The Department of State supports the Department of 
Homeland Security's efforts to integrate and coordinate the full 
spectrum of U.S. nuclear forensic activities, as well as efforts to 
develop and advance nuclear forensic capabilities for pre-detonation 
nuclear materials. Also, the Department of State interacts regularly 
with the IAEA through participation in the Illicit Trafficking Database 
Program. Finally, the Department of State leads many U.S. government 
efforts overseas for nuclear forensics, which include building 
international support to improve nuclear forensics and, where 
necessary, coordinating for deployment of U.S. technical or 
investigative teams for nuclear forensics.
    The President has made clear his view of the importance of building 
international partnerships to carry out nuclear forensics with specific 
commitments in the Global Initiative to Combat Nuclear Terrorism and 
the Bratislava Initiative. These initiatives highlight the need to 
improve capabilities for response, mitigation, and investigation, 
including the development of technical means to identify nuclear 
material or other radioactive materials and substances that are, or may 
be, involved in a nuclear incident. Through the Global Initiative, over 
sixty partner nations have committed to this objective as a key element 
of global capabilities to combat nuclear terrorism.
    Supporting our political commitment to strengthen nuclear 
forensics, the Department of State chairs the interagency Nuclear 
Trafficking Response Group, or (NTRG). The NTRG coordinates the U.S. 
government's response to international nuclear and radioactive material 
trafficking incidents. If deemed necessary, the Department of State 
also leads coordination for the Foreign Emergency Support Team (FEST), 
an interagency team that can quickly deploy anywhere in the world to 
assist U.S. embassies in our responses to acts of terrorism, including 
incidents involving nuclear or radiological material.

International Coordination to Combat Nuclear Smuggling
    Although nuclear forensics is often associated with activities 
conducted in post-detonation environments, nuclear forensics is 
extremely important to combat nuclear smuggling. As part of a shared 
commitment with our international partners to improve control of 
nuclear materials, shut down trafficking networks and routes, and 
prosecute nuclear smugglers, we are assisting other governments to 
strengthen their own nuclear forensics capacity and thus, strengthen 
our collective nuclear forensics effort. Our work with the Georgians in 
the successful prosecution of the 2006 case involving highly-enriched 
uranium (HEU) is a noteworthy example. This month a U.S. team went to 
Georgia to help the Georgian government align its nuclear forensics 
procedures with recent International Atomic Energy Agency (IAEA) 
guidance on Nuclear Forensics, which we helped create. The U.S. 
government also coordinates with the international community on 
technical nuclear forensics activities through the International 
Technical Working Group, or ITWG. The ITWG also works closely with the 
IAEA to provide member countries with support for forensic analyses. 
Priorities include the development of common protocols for the 
collection of evidence and laboratory investigations, organization of 
forensic exercises, and technical assistance to requesting nations. 
Through the International Technical Working Group, the U.S. can provide 
technical assistance on nuclear forensics to countries in response to 
specific requests.

Conclusion
    The Department of State will continue to support and lead in many 
areas to further develop our nuclear forensics capacity. We will also 
continue to identify and maximize opportunities where our partners can 
assist us in our efforts to strengthen our nuclear forensics capacity. 
In doing so, we save lives and strengthen our chances to identify 
threats.
    This concludes my prepared statement. With the committee's 
permission, I request that my formal statement be submitted for the 
record. Chairman Langevin, Ranking Member McCaul, and the other 
distinguished members of this Subcommittee, I thank you and I am happy 
to answer any of your questions.

    Mr. Langevin. Thank you, Mr. Grant.
    The chair now recognizes Dr. Burns for 5 minutes.

      STATEMENT OF CAROL BURNS, GROUP LEADER, NUCLEAR AND 
    RADIOCHEMISTRY, CHEMISTRY DIVISION, LOS ALAMOS NATIONAL 
                           LABORATORY

    Ms. Burns. Good afternoon, Chairman Langevin, Ranking 
Member McCaul and distinguished members of the subcommittee. It 
is an honor to appear before you today to discuss this 
important legislation. In particular, I have been asked to 
focus my remarks on the workforce needs required to meet the 
challenges of technical nuclear forensics.
    My name is Carol Burns. I am the group leader for the 
Nuclear and Radiochemistry Group at Los Alamos National 
Laboratory. I have more than 20 years of experience 
investigating the chemistry of radioactive elements. I also 
served on detail to the Office of Science and Technology 
Policy, working on issues associated with nuclear threats.
    There are three main points I would like to convey to you 
this afternoon. First, the national laboratories underpin the 
nation's nuclear forensics capability. Second, we face a 
challenge in sustaining our workforce. And finally, I would 
like to offer some ideas on how we can go about bringing in the 
next generation of forensic experts.
    My first point is that Los Alamos and the other DOE 
national laboratories are major contributors to our nation's 
capability for nuclear and radiological forensics funded by the 
agencies represented here today. The laboratories offer unique 
expertise and special facilities for handling radiological and 
nuclear materials. I staff and maintain our radioanalytical 
group capability, and as such am a consumer of the product of 
our educational pipeline.
    Many disciplines are involved in the different facets of 
technical nuclear forensics. Chemists and material scientists 
evaluate signatures to distinguish the origin of interdicted 
materials. Nuclear physicists and engineers develop tools to 
rapidly characterize the threat presented by a suspect device. 
Radiochemists separate and characterize the composition of 
complex mixtures of isotopes in debris in the wake of a nuclear 
or radiological explosion.
    To speak to my second point, the laboratories face 
challenges in recruiting and retaining a qualified workforce to 
carry out elements of this important work. Statistics from DNDO 
indicate that most employees who work solely on nuclear 
forensics at the laboratories are more than 50 years old. Some 
requisite knowledge cannot be acquired through formal 
education, but must be learned first-hand or taught by 
experienced workers.
    For instance, few radiochemists remain who have analyzed 
the debris from a nuclear explosion. It takes years working 
with senior staff and retirees to build this competence in a 
new worker even if he or she starts with a sound knowledge of 
radiochemistry.
    Another concern is the depth of our capability. At our 
current staffing levels, we will tax the capacity of the system 
with the surge of samples that might be expected after a major 
event, such as the detonation of a nuclear device.
    It has been well documented that some of our traditional 
feeder disciplines are on the decline. As highlighted in a 2004 
report from the Department of Energy and the National Science 
Foundation, the number of Ph.D.s granted in nuclear science 
disciplines has declined by 20 percent since the mid-1990s and 
by 50 percent since the mid-1970s. The number of radiochemistry 
and nuclear chemistry Ph.D.s awarded by U.S. universities has 
declined by more than a factor of five since 1970, as has the 
number of chemistry departments offering even one course in 
these disciplines.
    My third and final point is that there are many things that 
can and are being done to improve this situation. Many studies 
offer ideas for drawing students to the field, including 
training centers, faculty fellowships, summer undergraduate 
programs, and post-doctoral programs. We see progress, for 
example, in the establishment of the new DNDO-NSF Academic 
Research Initiative. We need sustained funding for research in 
a broad range of nuclear-related fields to encourage the 
commitment of faculty to the area.
    The laboratories are also responding. Los Alamos is 
initiating efforts to build relationships with partner 
universities to develop and recruit this next workforce through 
our National Security Education Center. In the end, drawing 
from traditional disciplines will not be enough. We need to 
enlist scientists from other fields and provide them with the 
means to conduct work on radioactive materials not easily 
handled in most university environments. This could occur 
through cooperative programs at the national laboratories.
    In conclusion, if the nation succeeds in developing this 
workforce, the benefits will extend beyond nuclear forensics. A 
stronger educational pipeline in nuclear disciplines will help 
the nation meet the challenges of nonproliferation, nuclear 
energy, and nuclear medicine.
    I thank you for your attention and will be happy to answer 
any questions.
    [The statement of Ms. Burns follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Langevin. Thank you, Dr. Burns.
    As I said, there is a vote on right now. There are four 
votes. That should take us at least 1/2 hour, so we will stand 
in recess until approximately 3:15 p.m.
    [Recess.]
    Mr. Langevin. The subcommittee will come to order. In the 
interests of time, and I know my colleague from California, Mr. 
Schiff, is in the middle of a markup in another committee. We 
are going to go to the second panel, and Congressman Schiff 
will testify. Once that testimony is concluded, we will go back 
to the first panel for questions, and then proceed from there 
with the markup after that.
    So again, in the interest of time, I am going to forego an 
opening statement for the second panel. I want to commend my 
colleague from California for his hard work and his thought and 
insight into working on this nuclear forensics issue. I think 
it is obviously important to the country, and I am proud to be 
a cosponsor in support of this effort.
    With that, I will yield to the ranking member for any 
comments, and then go to the witness.
    Mr. McCaul. I echo the chairman's comments. I want to thank 
you for being here, and thank you for introducing this 
important piece of legislation. I, too, am proud to be a 
cosponsor.
    Mr. Langevin. I thank the ranking member.
    With that, the chair now recognizes the gentleman from 
California, Congressman Adam Schiff.

STATEMENT OF HON. ADAM B. SCHIFF, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Schiff. Thank you, Mr. Chairman and Ranking Member 
McCaul. I greatly appreciate your support for this legislation. 
I also appreciate your consideration in taking me out of order. 
My apologies to your first panel, and I thank them for their 
indulgence as well.
    Today, I would like to speak with you very briefly about 
the Nuclear Forensics and Attribution Act. We all recognize 
nuclear terrorism as a threat so serious in its consequences, 
but we often shrink from contemplating it. A medium-size weapon 
detonated in downtown Manhattan would destroy every building 
across the width of the island and destroy homes as far away as 
Brooklyn and Hoboken. Hundreds of thousands of lives would be 
lost. The area would be uninhabitable for decades.
    But ignoring the problem won't make it go away. In fact, 
ignoring the possibility of terrorists getting a hold of a 
nuclear device makes that awful prospect more likely to happen. 
Illicit nuclear material has been intercepted in transit many 
times since the end of the Cold War, and the material we catch 
may be a small fraction of the total that is trafficked.
    President Bush has declared nuclear terrorism the number 
one national security threat facing the country, and this 
Congress and this subcommittee have made it more difficult to 
smuggle a weapon into the United States in an ongoing effort to 
strengthen the border. However, given the difficulties of 
securing our extensive border, we must take a layered approach 
to the problem.
    During the Cold War, we deterred the Soviet Union with the 
threat of overwhelming nuclear attack. Unfortunately, the 
decentralized flexible terror networks that we face today are 
not as easily deterred. There is little doubt that if al-Qa'ida 
acquired a nuclear weapon, they would attempt to use it against 
us. Osama bin Laden has termed the acquisition of weapons of 
mass destruction a ``religious duty,'' and there is no question 
that using such a weapon against America is consistent with the 
group's contempt for human life.
    Although al-Qa'ida may not be deterred, there are other 
groups and nations that can be dissuaded from helping them, but 
only if their participation can be traced back to them. This 
bill is designed to help shut down the international trade in 
nuclear material by deterring those parts of the trafficking 
network that can be deterred. Nuclear attribution would allow 
us to identify the provenance of nuclear material intercepted 
in transit or, God forbid, in the aftermath of a detonation. 
That knowledge would help us decide how to respond.
    It would also provide a deterrent. If nations around the 
world knew that they could be identified as the source of 
material used in a nuclear attack, even irresponsible nations 
would be disinclined to proliferate. For the more responsible 
nations, it would be a strong incentive to improve their 
security. Individuals would know that they could be found and 
prosecuted if they tried to help terrorist acquire nuclear 
materials. By developing a robust attribution capability, we 
can usher in an era where proliferation is not just 
discouraged, but deterred, because those responsible would be 
found and punished.
    The bill you are considering today supports our nuclear 
attribution capability by strengthening our nuclear forensics 
ability. Nuclear forensics involves studying the mix of 
isotopes and other features of nuclear material that give it a 
particular signature. There can also be information in the 
packaging and accompanying materials that could allow an expert 
to pinpoint the source.
    Nuclear forensics activities have historically taken place 
in a variety of government agencies, but primarily in the 
Departments of Defense and Energy. The new National Technical 
Nuclear Forensics Center in the Department of Homeland Security 
will support and coordinate these efforts. Experts in this 
office will consider how to develop a database of information 
on nuclear material that can assist in tracing traffic, 
technology or materials, organize the forensic response to 
nuclear detonation, ensure that the right research is being 
done to counter threats to our security at home, and make 
certain that enough scientists and engineers are entering 
fields like radiochemistry which are the key to our forensic 
capability.
    When a detective finds fingerprints, they must be matched 
against the database to identify possible culprits. Nuclear 
attribution works similarly, but there is no database of 
nuclear fingerprints. It can be difficult to obtain the needed 
information because it is considered sensitive in many 
countries, including our own. However, little of this 
information is of direct use to our adversaries, and in many 
cases the risk of not sharing the data is much greater than the 
risk of sharing it. Certainly, in the wake of a nuclear 
terrorist attack, no one will be reassured to hear that we 
couldn't shut down the smuggling networks because we didn't 
trust our allies.
    In addition, new and innovative approaches may allow 
countries to confidently match samples without having direct 
access to sensitive information. This bill asks the president 
to negotiate agreements with other nations to share information 
on the makeup of their nuclear materials. These could be 
bilateral agreements with our allies, or multilateral treaties 
with the IAEA. We could even begin the database with just 
civilian reactor materials where security is less of an issue.
    The important thing is to get started now. The National 
Technical Nuclear Forensics Center should play a key role in 
negotiations, since in the end the data we obtain must be the 
data the experts need. Nuclear terrorism is a threat of 
paramount danger and uncertain probability. It is not a threat 
we can measure in brigades, ships or warheads, but it is no 
less pressing for that. I believe this bill is a modest, but 
effective effort to reduce the risk of attack at the root of 
the problem. I am confident, after hearing from the experts, 
you will agree.
    Mr. Chairman and Ranking Member, I want to thank you again.
    [The statement of Mr. Schiff follows:]

Prepared Statement of the Honorable Adam B. Schiff, a Representative in 
                 Congress from the State of California

    Mr. Chairman, Members of the Subcommittee, thank you for having me 
here today to speak about the Nuclear Forensics and Attribution Act.
    Nuclear terrorism is a threat so serious in its consequences that 
we often shrink from contemplating it. A medium-sized weapon detonated 
in downtown Manhattan would destroy every building across the width of 
the island and destroy houses as far away as Brooklyn and Hoboken. 
Hundreds of thousands of lives would be lost, and the area would be 
uninhabitable for decades. But ignoring the problem will not make it go 
away--in fact, ignoring the possibility of terrorists getting hold of a 
nuclear device makes that awful prospect more likely to happen. Illicit 
nuclear material has been intercepted in transit many times since the 
end of the Cold War, and the material we catch is probably a small 
fraction of the total trafficked.
    President Bush has declared a nuclear terrorist attack on the 
United States the number one national security threat facing the 
country. This Congress and this Subcommittee have made it more 
difficult to smuggle a weapon into the United States in the ongoing 
effort to strengthen our border. However, given the difficulties of 
securing our extensive border, we must take a layered approach to the 
problem.
    During the Cold War, we deterred the Soviet Union with the threat 
of overwhelming nuclear attack. Unfortunately, the decentralized, 
flexible terror networks that we face today are not as easily deterred. 
There is little doubt that if Al-Qa'ida acquired a nuclear weapon, they 
would attempt to use it against us. Osama bin Laden has termed the 
acquisition of weapons of mass destruction ``a religious duty'' and 
there is no question that using such a weapon against America is 
consistent with the group's contempt for human life.
    Although Al-Qa'ida may not be deterred, there are other groups and 
nations that can be dissuaded from helping them, but only if their 
participation can be traced back to them. This bill is designed to help 
shut down the international trade in nuclear material by deterring 
those parts of the trafficking network that can be deterred.
    Nuclear attribution would allow us to identify the provenance of 
nuclear material intercepted in transit, or, God forbid, in the 
aftermath of a detonation. That knowledge would help us decide how to 
respond and it would also provide a deterrent. If nations around the 
world knew that they could be identified as the source of material used 
in a nuclear attack, even irresponsible nations would be disinclined to 
proliferate. For the more responsible nations, it would be a strong 
incentive to improve their security. Individuals would know that they 
could be found and prosecuted if they tried to help terrorists acquire 
nuclear materials. By developing a robust attribution capability, we 
can usher in an era where proliferation is not just discouraged, but 
deterred, because those responsible would be found and punished.
    The bill you are considering today supports our nuclear attribution 
capability by strengthening our nuclear forensics ability. Nuclear 
forensics involves studying the mix of isotopes and other features of 
nuclear material that give it a particular ``signature.'' There can 
also be information in the packaging and accompanying materials that 
could allow an expert to pinpoint a source.
    Nuclear forensics activities have historically taken place at a 
variety of government agencies, but primarily in the Departments of 
Defense and Energy. The new National Technical Nuclear Forensics Center 
in the Department of Homeland Security will support and coordinate 
these efforts. Experts in this office will consider how to develop a 
database of information on nuclear material that can assist in tracing 
trafficked technology or material, organize the forensic response to a 
nuclear detonation, ensure that the right research is being done to 
counter threats to our security at home, and make certain that enough 
scientists and engineers are entering fields like radiochemistry which 
are the key to our forensic capability.
    When a detective finds fingerprints, they must be matched against a 
database to identify possible culprits--nuclear attribution works 
similarly, but there is no database of nuclear fingerprints. It can be 
difficult to obtain the needed information because it is considered 
sensitive in many countries, including ours. However, little of this 
information is of direct use to adversaries, and in many cases the risk 
of not sharing the data is much greater than risk of sharing it. 
Certainly, in the wake of a nuclear terrorist attack, no one will be 
reassured to hear that we couldn't shut down the smuggling networks 
because we didn't trust our allies. In addition, new and innovative 
approaches may allow countries to confidently match samples without 
having direct access to sensitive information.
    This bill asks the President to negotiate agreements with other 
nations to share information on the makeup of their nuclear materials. 
These could be bilateral agreements with our allies or multilateral 
treaties through the International Atomic Energy Agency (IAEA). We 
could even begin the database with just civilian reactor materials, 
where security is less of an issue. The important thing is to get 
started now. The National Technical Nuclear Forensic Center should play 
a key role in the negotiations, since in the end, the data we obtain 
must be the data that the experts need.
    Nuclear terrorism is a threat of paramount danger and uncertain 
probability. It is not a threat we can measure in brigades, ships or 
warheads, but it is no less pressing for that. I believe that this bill 
is a modest but effective effort to reduce the risk of attack at the 
root of the problem, and I am confident that after hearing from the 
experts, you will agree.

    Mr. Langevin. I thank the gentleman from California for his 
testimony, and look forward to continuing to work with you on 
this important issue. I know you have a markup and we will 
forego questions at this time.
    Unless there is any further business, this panel is 
concluded. Thank you very much.
    The chair now calls up the first panel so that we can 
reconvene.
    Okay, the committee will come to order. Since the panel has 
given their statements, it is my intention now to go into 
questions. Let me begin, if I could, with Director Oxford, and 
then let other members of the panel add on to his answer.
    Director Oxford, could you please explain the organization 
mission and the role of each agency represented here in the 
National Technical Nuclear Forensics Center?
    Mr. Oxford. Mr. Chairman, first of all, the Technical 
Nuclear Forensics Center resides inside my office. It was 
established as a central integrator for U.S. government efforts 
in forensics. It was predicated on the same model that DNDO was 
established initially to serve, which was a centralized 
planning function with decentralized execution in the other 
departments.
    So besides being the central integrator, we serve a role as 
also being responsible for the pre-detonation material and 
device characterization, with other responsibilities then 
flowing to the other departments as part of their 
implementation responsibilities.
    Mr. Langevin. Very good.
    Anyone else care to comment?
    One of the key assets for nuclear forensics obviously would 
be a secure, yet accessible, database containing signatures and 
other information about domestic and international samples, 
again starting with you, Director Oxford--and I would welcome 
comments, of course, from anyone else as well--what is the 
current state of our domestic database or databases for 
chemical isotopic or radiological signatures for these 
materials? What about international databases? Do we have 
access to international databases? Do other countries or 
international agencies have access to any of our databases?
    Mr. Oxford. Let me start by saying a lot of that 
information needs to be discussed in a closed setting where we 
can talk about classified information and the actual status and 
health of both the domestic material database, as well as the 
international database.
    The agreement within the interagency is that database will 
reside within the Department of Energy in what we call the 
Nuclear Material Information Program that Dr. Aoki can 
reference. Within DNDO and the Forensic Center, we are 
responsible for creating some of the knowledge management and 
data mining tools that would allow us to quickly make access of 
that data in the actual event. I would let Dr. Aoki talk about 
the actual, what we call the NMIP.
    Mr. Langevin. Okay. Before we do that, do you get the sense 
from our international partners that they are as interested in 
creating this type of a database as we are? Without getting 
into classified information, is there a sense or demonstrated 
measures that have been taken to ensure that we have this 
cooperation?
    Mr. Oxford. There are signs of progress since the 
interagency has come together here, to start working on the 
international aspects. Again, Andrew Grant can probably address 
that more adeptly from the State Department. But we have 
started some work with the Russians, for example, and some 
database structure that will allow us to share, as Mr. Schiff 
was saying, at least starting with some of the reactor 
material, the non-military kind of isotopes that would allow us 
to share that kind of information in a pre-event environment. I 
think the problem will be in an immediate post-event, if we are 
talking about nuclear weapons material, that is going to take a 
little bit longer to actually get those agreements in place.
    Mr. Langevin. Good point. Thank you.
    Dr. Aoki, did you want to comment?
    Mr. Aoki. Yes. Let me just say a few words about the 
Nuclear Materials Information Program, or NMIP. As originally 
conceptualized, the first problem was that we had was to 
identify where nuclear materials are located, even before you 
get to the question of actually having samples or detailed 
physical information. So the first job NMIP has taken on is 
identifying what the holdings of other countries are. This is 
actually a somewhat dynamic process since materials are 
generated and separated on a daily basis. So simply keeping 
track of where the stuff is is actually the first job.
    The way in which NMIP has approached the task has really 
been to create what is in effect a database of databases. That 
is, there is a lot of information and Mr. Oxford referred to 
some of this as being classified information. There is a lot of 
information that is potentially available to the U.S. 
government through various agencies.
    So one thing that NMIP is trying to do is just establish 
itself as an entry point that allows questions to be routed to 
the places where the information is located, and the data fed 
back in a proper form. Again, there is quite a bit of 
historical record, much of it created for purposes other than 
nuclear forensics. So simply getting a handle on that has been 
the first task that we have been involved in.
    Mr. Langevin. Good. Thank you.
    Do other witnesses care to comment?
    Mr. Grant. Just two quick comments from the Department of 
State's perspective. Number one, we do see a lot of support for 
the ITB, the illicit trafficking database that the IAEA 
manages. In fact, we do have also awareness of the database and 
we use it where we can. It is limited in scope, and it is a 
completely voluntary effort. It does not include all members of 
the IAEA to submit material to that database, but it is a 
start.
    Secondly, through the Global Initiative, there is interest, 
and in fact there will likely be activity on databasing of 
radiological sources and other material. These are all starts, 
but these are importantly led by other countries who are 
sharing this interest with us.
    Mr. Langevin. Right. Thank you.
    My time has expired. I will now yield to the ranking member 
for question for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    This raises a lot of serious issues. This committee is 
always involved with very serious issues, but when you look at 
the world today, when you look at Pakistan, the A. Q. Khan 
network, that Pakistan has the capability. We have Musharraf in 
power, but there are a lot of hostile forces to him. The 
thought of that capability being turned over to more extreme 
forces gives me great pause.
    You have Iran on the quest for nuclear weapons, and North 
Korea. You have the former Soviet Union, and I am not quite 
sure to this day if we have a handle or accountability of the 
nuclear weapons that they had. So proliferation is a huge 
issue. And so detecting and deterring is very, very important. 
I think the focus of this hearing I guess with forensics is 
more after it is apprehended, or God forbid, after it has been 
detonated, where does it come from?
    And so, getting back to the database, because I share the 
chairman's concern about, and I understand some of this could 
be in a different setting, but the level of cooperation with 
many of these suspect countries I assume is very limited, if 
zero. So it raises the issue of the effectiveness of us, the 
United States, the administration, and the IAEA to effectively 
put some teeth into developing a database, so that we can truly 
trace back where this comes from if, God forbid, it happens.
    If this has already been answered, I apologize, but it is a 
question that I think is worth asking again in terms of any 
pressure that can be put on the IAEA or the United Nations to 
expand the database and have more cooperation throughout the 
world. That is for anybody on the panel.
    Mr. Grant. I will just answer one element of that that I 
think will provide you a little insight. Recently, in fact, 
Pakistan has decided to volunteer database material to the 
illicit trafficking database. Now, that is one of the only and 
few, really, standing databases where they can, if you will, 
demonstrate their cooperation for this issue. Also, just in the 
last couple of months, Pakistan has also become a Global 
Initiative partner. We expect them to participate in our Global 
Initiative activities on this particular issue.
    Again, these are very modest beginnings, but I think in 
that particular space recognizing the concerns for that 
country, along with the others who also participate, that is 
showing important steps forward for sharing our support and 
interest in this area.
    Mr. McCaul. Is there anything we in the Congress can be 
doing? Mr. Oxford, would you answer that? In addition to that 
question, is there anything we in the Congress can be doing to 
apply leverage?
    Mr. Oxford. First of all, to get to your latter question, I 
think just having this hearing and raising this subject is an 
important step. The interagency has been working hard the last 
year to identify what the gaps in capabilities are that we need 
to proceed with.
    Getting back to what Mr. Grant was saying, when the 
announcement of the Global Initiative first took place, there 
was a modest number of countries. I think there were about 13 
that first subscribed to that initiative. The number of 
countries now subscribing to the Global Initiative is 55. So we 
are seeing a willingness to at least start the dialogue. As Mr. 
Grant says, there is a lot of work yet to be done, but 
forensics is part of the work package that is being brought 
into the Global Initiative, and we think that is encouraging.
    Mr. McCaul. It certainly is.
    Dr. Burns, a specific question for you, the training of 
talent and expertise on this area of expertise is very 
challenging. Can you speak to the level of the workforce in 
this area, and also to retirements? I think most people that 
have had a lot of experience in nuclear forensics, we don't 
have that young talent that I think we need to have in this 
country.
    Ms. Burns. There has been some information that was self-
professed by the laboratory, so this is self-reporting data 
now, that indicates if you try and identify the number of 
people who spend most of their time working on technical 
forensics problems, it is probably on the order of 20 to 30, a 
small number. Then if you look at the broader community within 
the laboratories that are spending a portion of their time 
working on technical forensics, it reaches to about 200.
    Now, if you look at the demographics associated with that, 
we find that in fact there is a challenge in that of the people 
who are spending full-time on the effort, those tend to be 
predominantly over 50, and in fact in some cases we have 
retirees staffing significant roles. So I think that proves 
that over the next 10 years, we will have a concern.
    Mr. McCaul. Any solution to that?
    Ms. Burns. Well, part of the solution is to identify 
additional people we can bring in and perhaps some of the 
education will go on through our educational system. But 
something else perhaps we can in fact do is make sure that our 
senior staff are provided with some time working on the 
programs specifically to mentor younger staff. That is very 
challenging financially for programs to support people who are 
largely serving in that sort of training function, but that 
knowledge transfer I think is going to be critical in the short 
term.
    Mr. McCaul. I agree.
    Thank you, Mr. Chairman.
    Mr. Langevin. I thank the gentleman.
    The chair now recognizes the gentleman from Texas for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman.
    I thank the ranking member as well. I thought that the 
ranking member acquitted himself well this morning. I caught 
your performance.
    [Laughter.]
    Friends, it would seem to me that it is in the best 
interests of the communities of the world, meaning the nation-
states, to work together on this type of endeavor. Can someone 
give me an indication as to how much cooperation we are 
receiving from the nation-states? And more specifically, which 
seem to find it an issue that they don't want to work 
cooperatively on or with us on?
    Mr. Grant. Just in review of the illicit trafficking 
database and the ITWG, the standing Technical Working Group 
that focuses on this issue, there are 28 countries that are 
participating in the ITWG right now. Now, the ITWG is 
establishing practices in these countries--and again, it is on 
a voluntary basis--to work with us and others who have perhaps 
a more robust capacity.
    In terms of pointing to challenging areas, I think many of 
us are aware of where those spaces might be. The Black Sea 
region we are most interested in. We are certainly interested 
in the Middle East as well. Some of those countries have been 
less supportive to be involved in technical nuclear forensics, 
but it is a list that includes members from all continents. 
Additionally, I think there is strong acceptance to recognizing 
the need to provide more detailed technical support or 
practices, if you will, procedurally to assist countries to 
develop their technical nuclear forensics capability.
    So these two forms--the ITV, the illicit trafficking 
database as it grows, based on the voluntary nature of the 
database, and then the ITWG, are good forums to be strengthened 
and for participation from global partners.
    Mr. Green. This may be beyond the scope of what you are 
here for, but it would help me if you can answer the question. 
It would seem to me that the detonation of a device of the 
magnitude that we are talking about would be harmful to the 
planet Earth as opposed to someplace on the planet Earth. Is 
there some truth to what I have said?
    Mr. Aoki. Certainly. Leaving aside the political impact, 
which would be devastating, and the local impact which would be 
devastating, there would also be measurable effects that could 
be detected around the world. Again, we have some history of 
nuclear testing in the atmosphere. We know that even at 
locations that were many hundreds of miles away from the test 
site, it was possible to identify radiation. So in that sense, 
certainly it will be true that there would be effects that 
would be observable and measurable a long distance away. Once 
one gets beyond a certain radius from the site of the event, 
those are not catastrophic effects, but they are something that 
people would be aware of and would have real effects on human 
health.
    Mr. Green. Thank you, Mr. Chairman. I yield back.
    Mr. Langevin. I thank the gentleman.
    I am told that other members are returning and we may have 
enough for the markup. So with that, I am going to go to a 
second round.
    Well, with that, I am told we are going to as soon as we 
conclude at this point and then move to the markup, we will 
have enough time to conclude our business for the day.
    So with that, I want to thank the panel for their testimony 
here today. I will remind the panel that the panel may have 
additional questions. I would ask that the witnesses respond as 
expeditiously as possible to those questions in writing.
    At this time, the first panel of witnesses is dismissed. 
Again, I thank you for your time, your effort, and your service 
to the country. Thank you very much.
    [Whereupon, at 4:29 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
